OFFICE OF INSPECTOR GENERAL 

  for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
MANAGEMENT OF SECTION
609(g) FUNDS

AUDIT REPORT NO. M-000-06-002-P
SEPTEMBER 28, 2006




WASHINGTON, DC 

                          0
               Office of Inspector General
                  for the
               Millennium Challenge Corporation



               September 28, 2006


               Mr. John Danilovich
               Chief Executive Officer
               Millennium Challenge Corporation
               875 Fifteenth Street, N.W.
               Washington, DC 20005


               Dear Mr. Danilovich:

               This letter transmits our final report on the Audit of the Millennium Challenge
               Corporation’s Management of Section 609(g) Funds. In finalizing the report, we
               considered your written comments on our draft report and included those comments in
               their entirety in Appendix II of this report.

               The report contains four audit recommendations for corrective action. Based on your
               response to our draft report, we consider that a management decision has been reached
               on each recommendation. Final action for the recommendations must be determined by
               the MCC, and we ask that we be notified of the MCC’s actions.

               I appreciate the cooperation and courtesy extended to my staff during the audit.




               Sincerely,

               /s/
               John M. Phee
               Assistant Inspector General
               Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523                                       1
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objectives ................................................................................................................ 3


Audit Findings ................................................................................................................. 4 


Did the Millennium Challenge Corporation Award Section 

609(g) Assistance Funds in Accordance with Its Policy?.................................................. 4 


     MCC Did Not Have a Section 609(g)

     Policy in Place When Awarding 

     Assistance Funds to Several Section 

     609(g) Countries ......................................................................................................... 4 


Did the Millennium Challenge Corporation Track and 

Monitor Section 609(g) Funds to Ensure Funds Were Used 

for the Intended Purposes Under the Millennium Challenge 

Act of 2003? ...................................................................................................................... 5 


     MCC Needs to Improve Monitoring of 

     Section 609(g) Cash Advances................................................................................... 6 


     MCC Needs a Formal Policy to Approve 

     Section 609(g) Contractors’ Invoices .......................................................................... 8 


     MCC Needs to Improve Its Process for 

     Approving and Documenting Exceptions 

     to the Procurement Agreement ................................................................................. 10 


     MCC Needs to Formally Develop 

     Country Procurement Capacity 

     Assessments Guidelines........................................................................................... 11 


     MCC Needs to Improve Monitoring of 

     Overseas Procurement Practices ............................................................................. 13 



Evaluation of Management Comments ....................................................................... 15 


Appendix I – Scope and Methodology ........................................................................ 16 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Flow Chart of 609(g) Process ............................................................ 20 





                                                                 2
SUMMARY OF RESULTS

The Assistant Inspector General for the Millennium Challenge Corporation (MCC)
conducted this audit as part of its fiscal year 2006 audit plan to determine whether the
Millennium Challenge Corporation awarded Section 609(g)1 assistance funds in
accordance with its policy and tracked and monitored Section 609(g) funds to ensure
that the funds were used for the intended purposes under the Millennium Challenge Act
of 2003 (page 3).

The audit concluded that the MCC awarded Section 609(g) assistance funds in
accordance with both its June 2005, and revised October 2005 policies. However, prior
to June 2005, the MCC did not have a policy in place when it awarded Section 609(g)
funds to its initial five recipient countries (pages 4 - 6). The revised October 2005 policy
strengthened MCC’s awarding of Section 609(g) assistance funds in that: (1) financial
management and procurement processes to control payments of the Section 609(g)
funds were defined, (2) country ownership was clearly defined and (3) submitting a work
plan with a timeline and estimated budget was required. Furthermore, the MCC held a
training conference for eligible countries to inform and educate their representatives as
to the requirements, roles and responsibilities under the Section 609(g) program. The
MCC is also drafting an updated policy to address the issue of bridge funding2 under the
Section 609(g) program.

The audit also concluded that the MCC had developed initiatives to track and monitor
Section 609(g) funds to ensure such funds were used for the purposes intended under
the Millennium Challenge Act of 2003. For example, the MCC developed and
implemented guidelines in assessing the fiscal capacity of eligible countries and
streamlined its contracting acquisitions process.

However, the audit identified several opportunities for further improvements to the
Section 609(g) program specifically, (1) the initial lack of documented Section 609(g)
assistance or bridge funding policies and procedures (pages 4 -6); (2) inadequate
monitoring and tracking of Section 609(g) funds, specifically in the areas of financial
controls, country procurement capacity assessment guidelines; and (3) inadequate
oversight of overseas procurement activities (pages 7-15).

In its response to our draft report, the MCC agreed with the recommendations and
explained its plans for implementing them. Therefore, we consider that a management
decision has been reached on each recommendation (pages 9, 11, 13, and 14).
Management comments are included in their entirety in Appendix II (page 17).




1
  Section 609(g) of the Millennium Challenge Act of 2003 permits the Chief Executive Officer to enter into a
contract or make grants for any eligible country for the purpose of facilitating the development and
implementation of the compact between the United States and the country.
2
    Bridge funding assists countries with Administrative overhead costs after they sign their Compacts.


                                                        1

BACKGROUND

On January 23, 2004, the Millennium Challenge Corporation (MCC) was established by
the Millennium Challenge Act of 2003 (Act) to administer the Millennium Challenge
Account (MCA). The MCC is a government corporation designed to provide assistance
to selected developing countries that rule justly, invest in their people, and encourage
economic freedom. Since it was established, the MCC has as of March 2006, selected a
total of 23 countries eligible to submit proposals for assistance and has signed
Compacts3 with eight of them.

In addition to providing assistance to eligible countries through Compacts, the MCC,
through the Authority of Section 609(g) of the Act,4 commits funds to eligible countries
that need assistance to develop and implement Compact proposals. For example,
Section 609(g) funds can be used for management support, monitoring and evaluation,
and feasibility studies. The MCC contracts with U.S. and international firms to perform
these functions. As of March 2006, the MCC had committed funds to 11 countries under
the Section 609(g) program. Of these countries, seven had received funding for
developing their Compacts; while the other four have received commitments from the
MCC for funding after they sign their Compacts (i.e. bridge funding). The chart below
illustrates the number of countries receiving Section 609(g) funding and the amount the
MCC committed to each country.

                  Country           Date of        Amount                Type of Section
                                    Approval       Committed             609(g) Funding
                  Armenia           3/28/2006      $    500,000          Bridge-funding
                  Benin             3/3/2006       $ 1,536,490           Bridge-funding
                  Cape Verde        6/28/2005      $    255,000          Pre-Compact
                  Cape Verde        11/9/2005      $     70,000          Pre-Compact
                  Georgia           5/4/2005       $ 4,155,000           Pre-Compact
                  Georgia           11/29/2005     $    606,600          Bridge-funding
                  Ghana             5/20/2005      $     57,000          Pre-Compact
                  Ghana             5/26/2005      $    227,000          Pre-Compact
                  Ghana             7/11/2005      $ 3,000,000           Pre-Compact
                  Lesotho           5/17/2005      $ 1,400,000           Pre-Compact
                  Madagascar        3/3/2005       $ 1,000,000           Pre-Compact
                  Mali              1/23/2006      $ 9,700,000           Pre-Compact
                  Mozambique        8/22/2005      $ 6,000,000           Pre-Compact
                  Mozambique        5/17/2006      $ 7,861,305           Pre-Compact
                  Nicaragua         4/20/2005      $    117,868          Pre-Compact
                  Nicaragua         2/6/2006       $     75,000          Bridge-funding
                  Senegal           6/30/2005      $ 6,500,000           Pre-Compact
                  TOTAL                            $ 43,061,263



3
  A Compact outlines, among other things, program objectives, related projects, project funding and a
program implementation framework.
4
  Section 609(g) of the Act: “Notwithstanding subsection (a), the Chief Executive Officer may enter into
contracts or make grants for any eligible country for the purpose of facilitating the development and
implementation of the Compact between the United States and the Country”.


                                                      2
To commit funding to these countries, and to adhere to Section 609(g) of the Act, the
MCC developed Section 609(g) policies that addressed the criteria that it and the eligible
countries should follow when requesting funding. The policy cites seven criteria each
country should meet, including at a minimum: reflecting country ownership through a
consultative process, documenting its commitment through the allocation of human and
financial resources, and defining its financial management and procurement processes.
In addition, the policy provides for post-Compact funding—bridge funding—which assists
countries with administrative overhead costs after they sign their Compact. The
flowchart in Appendix III provides an illustration of the MCC’s 609(g) process.

Before the MCC commits funding to these countries, it conducts fiscal and procurement
assessments of the countries’ financial and procurement management capacity. If the
MCC determines that the country does not have the capacity to manage the Section
609(g) funds or manage its procurement process, the MCC will serve as the fiscal and
procurement agent. When this occurs, the MCC procures contractors to work on specific
Section 609(g) projects and pays the contractors directly, without transferring any funds
to the government’s account. When the MCC determines, through its fiscal assessment,
that a country is capable of serving as its own fiscal agent, it transfers the funds into the
government’s account in order to pay the contractors. If the MCC determines that the
country could only manage its own procurement process, the country procures its
contractors, but the MCC pays the contractors directly.

The audit fieldwork was conducted at the MCC Headquarters, with site visits to MCA
Georgia and MCA - Lesotho from April 5, 2006, to June 16, 2006. As of June 16, 2006,
the MCC had committed a total of $43,061,263 for Section 609(g) funding. In addition,
as of April 7, 2006 it has disbursed a total of $1,176,581 to the countries to whom it had
committed Section 609(g) funding.


AUDIT OBJECTIVES
The Assistant Inspector General for the Millennium Challenge Corporation conducted
this audit as part of its fiscal year 2006 audit plan. The objectives of this audit were to
answer the following questions:

   •	 Did the Millennium Challenge Corporation award Section 609(g) assistance
      funds in accordance with its policy?

   •	 Did the Millennium Challenge Corporation track and monitor Section 609(g)
      funds to ensure such funds were used for the intended purposes under the
      Millennium Challenge Act of 2003?

Appendix I contains a discussion of the audit’s scope and methodology.




                                             3

AUDIT FINDINGS

Did the Millennium Challenge Corporation Award Section 609(g)
Assistance Funds in Accordance with its Policy?
The audit concluded that the MCC awarded Section 609(g) assistance funds in
accordance with both its June 2005, and revised October 2005 policies. However, prior to
June 2005, the MCC did not have a policy in place when it awarded Section 609(g) funds
to its initial five recipient countries.

The MCC complied with its revised October 2005 policy relating to awarding Section
609(g) assistance funds by ensuring that for example Mali, document that; (1) financial
management and procurement processes to control payments of the Section 609(g) funds
were defined, (2) country ownership was clearly established, and (3) the Government of
Mali submitted a work plan with a timeline and estimated budget. Further, the MCC held
training conferences for eligible countries to inform and educate their representatives as to
the requirements, roles and responsibilities under the Section 609(g) program, and the
MCC was also drafting a policy to address the issuance of bridge funding under the
Section 609(g) program.

In spite of these changes, we noted that the MCC committed funds identified as Section
609(g) bridge funding to four countries without any documented policies to ensure
consistent and adequate guidance.

These areas are discussed below.

MCC Did Not Have a Section 609(g)
Bridge Funding Policy in Place When
Awarding Assistance Funds to
Several Section 609(g) Countries

  Summary: The Millennium Challenge Corporation (MCC) committed bridge funding
  assistance to four countries without having a documented policy in place. This
  condition occurred because the MCC, as a new organization, was still in the
  process of developing specific policies and procedures. The absence of a formally
  developed policy created a potential for inconsistencies and nonstandardization in
  the process. A policy related to bridge funding is still being updated even though
  the MCC continues to commit this type of funding.

Section 609(g) of the Millennium Challenge Act of 2003 gives the MCC the authority to
provide assistance to countries to develop and implement their Compacts. The MCC’s
current policy on Section 609(g) was developed and implemented in October of 2005.
This policy lists seven conditions that should be present before the MCC will consider
making Section 609(g) funds available to an eligible country.




                                             4

The MCC did not have a policy in place to address the issue of Section 609(g) bridge
funding assistance to four countries: ─ Armenia, Benin, Georgia and Nicaragua. For
Armenia and Benin, two countries that had recently been committed to receive Section
609(g) assistance funds, the country directors stated they used a memo written by the
MCC’s Chief of Staff as policy and guidance in making Section 609(g) decisions. This
memo was not approved by the Chief Executive Officer of the MCC, nor did it provide
adequate guidance in addressing bridge funding administration. Subsequently, the Chief
of Staff stated that the memo was not an approved policy but a “concept paper” and
should not be used as a policy.

The MCC is currently updating its Section 609(g) policy to address the issue of bridge
funding for eligible countries; however, at the time of our fieldwork, the bridge funding
policy had not been approved.

The lack of a formal Section 609(g) bridge funding policy occurred because the MCC, as
a new organization, is still in the process of developing specific policies and procedures.
The MCC has been in the process of reviewing and revising its Section 609(g) policy to
address bridge funding and other evolutions in the use of 609(g) authority since it was
originally issued. This issue was previously addressed in an earlier OIG report titled
Review of the Millennium Challenge Corporation’s Progress in Achieving its Planned
Organizational Structure and Beginning its Assistance Programs (Audit Report Number
M-000-06-001-S). In response to one of the report recommendations to update the
current Section 609(g) policy to address the issue of bridge funding, MCC management
stated it “expects to complete a revision process by May 31, 2006.” However, at the
time of our fieldwork, this revision process was yet to be completed. On July 26, 2006,
the MCC provided a letter which summarized the status of corrective actions to OIG
recommendations that required final actions. In the response, the MCC stated that it
had drafted a revision to its 609(g) policy regarding bridge funding, which is currently
under review by the Corporation’s top management. Therefore, because a previous
recommendation was made on this subject, and the MCC has reportedly already taken
corrective action, we are not making a recommendation in this report.

Did the Millennium Challenge Corporation Track and Monitor
Section 609(g) Funds to Ensure Funds Were Used for the
Intended Purposes Under the Millennium Challenge Act of 2003?
Overall, the Millennium Challenge Corporation has tracked and monitored Section
609(g) funds to ensure funds were used for the intended purposes under the Millennium
Challenge Act of 2003.         However, we noted several opportunities for overall
improvement, specifically in the areas of financial controls, country procurement capacity
assessment guidelines, and oversight of procurement activities and processes.

The following section discusses these issues in detail:




                                            5

MCC Needs to Improve Monitoring of Section 609(g)
Cash Advances

    Summary: The Millennium Challenge Corporation (MCC) was not fully aware of
    how the Millennium Challenge Account (MCA) countries expended the total amount
    of its bridge funding, because the MCC did not require or provide an explanation to
    MCG requesting an expense or liquidation report documenting MCG’s use of the
    Section 609(g) funding the MCC had committed to the country. An MCC official
    stated that the MCC did not request an expense report from MCG because it was
    not disbursing new funding but the remaining balance from previously approved
    funding. To ensure that organizations, such as the countries receiving Section
    609(g) funds, do not mismanage the MCC funds, the Treasury Financial Manual
    (TFM) provides guidance that a funding Federal entity should follow when
    providing cash advances. The MCC did not request a report from MCA country
    that detailed how it spent the first cash advance of the bridge funding. The lack of
    proper monitoring of Section 609(g) cash advances to recipient countries increases
    the risk of a country using the funds inappropriately.

The MCC did not fully track and monitor the Section 609(g) funds it committed to one of
its recipient countries and, as a result, it was not fully aware of how this country
expended funds that it received from the MCC. In accordance with the MCA Act, the
MCC assisted the Millennium Challenge Account Georgia (MCG) in preparing its
Compact and covering administrative costs after it signed the Compact. The MCC
committed a total of $4,761,600 of Section 609(g) funding to the government of Georgia
to assist with the preparation of its Compact and for covering administrative costs after it
signed the Compact. The first funding, for pre-compact assistance, was in the amount of
$4,155,000, which was used to conduct feasibility studies and other projects that would
support Georgia's proposal.

The second funding, $606,600 (also termed bridge funding), assisted MCG with the
purchase and procurement of office supplies and the payment of staff salary until the
Compact entered-into-force.5 Although the MCC paid the contractors directly under the
first Section 609(g) funding, it required MCG to submit disbursement requests for the
second Section 609(g) funding, based on its cash needs; MCG submitted two
disbursement requests, one on December 21, 2005, for $543,459 and a second for
$63,141, on March 15, 2006. After receiving the first disbursement request, the MCC
sent a cash advance in the requested amount to MCG on January 12, 2006, and sent
the second payment on March 31, 2006. Several officials at the MCC who work closely
with MCG later confirmed that MCG did not submit an expense report before receiving
the second disbursement of $63,141.

To explain the MCC's action, an MCC official stated that the MCC did not request an
expense report from MCG because it was not disbursing new funding but the remaining
balance from previously approved funding. He stated that MCG should provide the MCC
with an expense report at the end of the Section 609(g) program, which should be in


5
  Entry-into-Force is a term used to signify that the country has met all conditions precedent to the first
disbursement made.

                                                        6

June 2006. Subsequent to the end of our review, the MCC received the expense report
from MCG, which detailed how it spent the second Section 609(g) funding of $606,600.

Although neither of the agreements that the MCC provided to the Millennium Challenge
Georgia (MCG)─ Grant or Implementation Agreement--required MCG to provide an
expense report explaining its bridge-funded expenditures, the Implementation
Agreement stated that MCG should, "at least monthly, reconcile actual cash payments it
makes against the disbursements made by the MCC and shall provide such information
to the Ministry and the MCC (if the MCC so requests)...," MCG submitted this
information to the Ministry of Finance but not to the MCC, the entity providing the
funding. In addition, the MCC did not make any such request until it had disbursed the
total amount of the bridge funding─$606,600.

To rectify similar issues, the Treasury Financial Manual (TFM) provides guidance that a
funding Federal entity should follow when providing cash advances to recipient
organizations. TFM Volume 1-Part 6, Section 2075.10a of the “Cash Advances Under
Federal Grant and Other Programs” states that a federal agency should monitor "the
recipient organization's drawdowns coupled with reviews of the other financial practices
to ensure against excessive withdrawals of Federal funds."

Although the MCC disbursed a total of $606,600 in bridge funding to the MCG, it did so
without tracking the use of funds from the previous advance. In addition, the MCC
approved the second disbursement request ($63,142 of the total $606,000) without
verifying how MCG spent the initial cash advance. In the Implementation Agreement, a
contract document between the MCC and the government of Georgia, the MCC did not
require MCG to provide an expense or liquidation report documenting MCG’s use of the
$606,000. However, as previously noted, an MCC official stated that MCG should
provide the MCC with an expense report at the end of the Section 609(g) program,
which should be in June 2006.

According to an MCC contractor, the MCC requested a certification from the Georgian
Ministry of Finance, which should explain how MCG used the first disbursement of the
bridge funding. The contractor stated that the certification should explain how these
funds were used in accordance with the Implementation Agreement. However, neither
MCG nor the contractor could confirm whether the Ministry of Finance submitted this
information to the MCC. A representative from the Ministry of Finance also stated that
her office was not aware of a liquidation report that they were required to submit to the
MCC.

Though MCG used the funds for Section 609(g) activities, risks of improper expenditures
may increase if a country does not report its expenses back to the MCC. An MCC
official stated that it only requires the recipient organization to submit a report when
requesting new funding or at the end of the program. As a result, the MCC may not
know how the country spends the funds while the program is ongoing. In addition, not
reviewing the country's expenses may result in the mismanagement of funds by
countries with weak financial management systems.                  We are not making
recommendation on this finding as the Office of Inspector General (OIG) has made
similar recommendations in previous reports.6

6
  Risk Assessment of Millennium Challenge Account (MCA) Cape Verde M-000-06-004-F dated September
26, 2006. Recommendation No.1 and Audit of the Millennium Challenge Corporation Efforts to Establish its
Internal Control Structure M-000-05-002-P, dated March 31, 2005. Recommendation No.2

                                                   7

MCC Needs a Formal Policy
to Approve Section 609(g)
Contractors’ Invoices

     Summary: The Millennium Challenge Corporation (MCC) did not provide the
     National Business Center (NBC) with a list of officials designated to authorize
     payments of Section 609(g) contractors’ invoices. The NBC could not confirm if the
     invoices it received were authorized by the appropriate designated official. This
     occurred because the MCC did not have a formal process in place to approve
     invoices of contractors who work in 609(g)-related countries where the MCC does
     not serve as the procurement agent. The General Accountability Office’s (GAO)
     Standards for Internal Control in the Federal Government7 recommends that in
     order to reduce fraud and error, agencies should develop key duties and
     responsibilities for authorizing transactions. As a result of not providing the NBC
     with a list of officials designated to authorize payments, the NBC could make
     payments to contractors who had not completed the assigned work as stated in the
     contract.

The National Business Center (NBC) is a U.S. agency that conducts financial functions
related to paying contractors for the MCC. However, the NBC cannot ensure that
contractors’ invoices have been authorized for payment by designated MCA personnel.
Currently, when the NBC receives invoices from countries receiving Section 609(g)
funding, the MCA office certifies the invoices authorizing the NBC to pay the contractors.
For example, the MCC committed $4,155,000 of Section 609(g) funding to the
government of Georgia for Millennium Challenge Account Georgia (MCG) for
preparation of its Compact, which enabled MCG to conduct studies and surveys by
contracting with contractors. In the Implementation Agreement, a contract document
between the MCC and the recipient country, the MCC determined that MCG could serve
as a procurement agent and select its own contractors. In addition, the MCC delegated
its responsibility to approve or certify the contractors’ work and required MCG to certify
each contractor’s invoice. After receiving the invoice, the MCC agreed to pay the
contractors based on satisfactory certification by MCG.

The General Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states, “Key duties and responsibilities need to be divided or segregated
among different people to reduce the risk of error or fraud. This should include
separating the responsibilities for authorizing transactions, processing and recording
them.” In addition, GAO states that “transactions and other significant events should be
authorized and executed only by persons acting within the scope of their authority. This
is the principal means of assuring that only valid transactions to exchange, transfer, use,
or commit resources and other events are initiated or entered into. Authorizations should
be clearly communicated to managers and employees.”

Although several officials at the MCC stated that the MCC was not authorized to approve
the invoices, an NBC employee stated that she received the invoices from the MCC and
not directly from Georgia. In addition, the NBC employee mentioned that she does not



7
    Standards for Internal Control in the Federal Government. GAO/AIMD-00-21.3.1 November 1999.

                                                    8

know who MCG had designated to authorize the invoices. As a result, the NBC had
received and paid at least 11 invoices that several individuals had authorized, including
several invoices authorized by the CEO of MCG, and two individuals at the MCC who
served as Contracting Officers Technical Representatives (COTR).

No one contacted at the MCC was able to clarify the proper process that the MCA or the
MCC offices should follow when approving Section 609(g) contractors’ invoices for
payments. An MCC individual stated that there were mistakes with these invoices
because the NBC did not know the process to follow when a Section 609(g) recipient
country procures its contracts and the MCC pays the contractor. As a result, the NBC
followed incorrect processes. For example, the NBC requested that COTRs approve the
invoices even though the MCC did not designate its employees as COTRs for
contractors working in Georgia for Section 609(g) activities. Therefore, the COTRs
approved the payments of invoices for two contractors that they were not authorized to
approve.

Due to the current invoice authorization process, the NBC does not know if the invoices
are authorized by the appropriate personnel at the MCG. A person other than the
designated official responsible for authorizing the invoices may sign the invoice without
knowing if the contractor has completed the work. In addition, different individuals at the
MCC review and approve invoices without knowing the regulations addressed in the
Implementation Agreement that was signed by the MCC and the Section 609(g) recipient
country. Approving invoices without confirmation that the contractor has completed the
tasks which for which he was contracted could result in mismanagement of funds.

In order to improve the internal controls over the invoice approval process, and to reduce
the potential for fraudulent invoices, we are making the following recommendation.

   Recommendation No. 1: We recommend that the Millennium Challenge
   Corporation’s Vice President for the Department of Operations provide the
   National Business Center with a list indicating all persons at Millennium
   Challenge Accounts who are designated to approve payments for invoices, in
   order to ensure validity of the contractors’ work before making payments into
   their accounts.




                                            9

MCC Needs to Improve Its Process
For Approving and Documenting
Exceptions to the Procurement Agreement

 Summary: The Millennium Challenge Corporation (MCC) approved two Millennium
 Challenge-Georgia (MCG) contracts in excess of established limits. The files did
 not show that MCG created a justification for this exception. The General
 Accountability Office’s (GAO) Standards for Internal Control in the Federal
 Government recommends that in order to reduce fraud and error, agencies should
 develop key duties and responsibilities for authorizing transactions. The MCC policy
 did not require that MCG formally identify the exception in the Procurement Plan or
 provide a justification, or that the MCC formally waive its established cap. The
 method used for the procurement was not a full and open competition, although
 MCG contacted more suppliers than the minimum required, which could have led to
 a more costly procurement than necessary.


The General Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government recommends that in order to reduce fraud and error, agencies should
develop key duties and responsibilities for authorizing transactions.

The MCC allowed MCG to procure goods in excess of the amount allowed by the
Procurement Agreement. In particular, the Procurement Plan listed “Shopping” as the
procurement method for MCG computer hardware at an estimated cost of $67,920 and
for a vehicle at an estimated cost of $55,000 although procurements using this method
were limited by the MCC in the Procurement Agreement to $30,000. The Procurement
Plan documents planned procurements, their estimated cost, and their method of
procurement. MCG purchased these goods by shopping, which refers to a World Bank-
defined method of purchasing goods by comparing price quotations from several
suppliers. MCG explained that the MCC approved these procurements by its approval of
the Procurement Plan (November 2005 to March 2006). At the time of our fieldwork, the
files did not show that MCG created a justification for the exception and formally
documented it in the Procurement Plan, nor that the MCC considered and formally
waived the agreed-upon cap when approving the Procurement Plan. However, at the
end of our fieldwork, we received several emails from the MCC’s procurement specialist
that documented the approvals and justifications for exceeding the $30,000 limit as
stated in the Procurement Plan.

The Procurement Agreement, dated April 7, 2005, permits the use of shopping for
procurements valued at less than $30,000. Shopping as defined by the World Bank
Guidelines for Procurement Under IBRD Loans and IDA Credits is a procurement
method based on comparing price quotations obtained from several suppliers, with a
minimum of three, to ensure competitive prices, and is an appropriate method for
procuring readily available off-the-shelf goods or standard specification commodities of
small value. The MCC utilized portions of World Bank Guidelines in developing its own
set of guidelines which specifically set a limit of $30,000 for this procurement method.




                                          10 

World Bank Guidelines state that “open competition is the basis for efficient public
procurement.” Shopping is not considered a full and open competition because it does
not require, for instance, advertising, which would broadly disseminate the opportunity or
other elements found in a competitive process. However, MCG did contact more
suppliers than the minimum three required when conducting its procurement process.
Nevertheless, the MCC established a limit of $30,000 for a purpose—to encourage a
fully open and competitive process and to control the use of this procurement method.
However, the only support we found for diverting from the formal procurement
agreement were personal statements and emails.

The Procurement Plan sets forth the particular contracts for goods, works, and/or
services required to carry out the defined projects, the proposed methods of
procurement that are permitted by agreement, and related review procedures. The
MCC policy did not require that exceptions to the Procurement Agreement be identified
and formally justified within the Procurement Plan and that the MCC formally waive its
established expenditure limit of $30,000. Electronic mail messages provided after our
review showed that MCG had informed the MCC that one of the two procurements
exceeded the shopping expenditure cap with MCG concluding that the method would be
the most acceptable for the type of goods being purchased, i.e., a vehicle. Additionally,
we found no formal MCC policy or guidance that describes the acceptable manner for
reviewing deviations from the procurement agreement.

We believe that the MCC should have a formal policy which describes the methodology
for authorizing deviations from the procurement agreement. Therefore, we are making
the following recommendation.

      Recommendation No. 2: We recommend that the Millennium Challenge
      Corporation’s Vice President, Department of Accountability, establish a policy
      that describes the process for approving deviations to the Procurement
      Agreement.

MCC Needs to Formally Develop
Country Procurement Capacity
Assessment Guidelines

     Summary: The Millennium Challenge Corporation (MCC) had not formally
     developed its country procurement capacity assessment guidelines. Best practices
     from selected development agencies suggest the establishment of agency- specific
     guidelines or factors for assessing a grant recipient country’s capacity for
     procurements. The MCC did not formally develop guidelines because, as a new
     agency, it was still working on developing Agency-specific policies and procedures.
     The absence of formally developed guidelines has led to inconsistencies and
     nonstandardization in the process.


The MCC did not formally develop its country procurement capacity assessment
8
 guidelines or factors to ensure a consistent and standardized methodology for reviewing

8
    MCC conducts assessments to determine if a recipient country has the ability to manage its own
    procurements.

                                                      11
a country's capacity to conduct procurements. The MCC assesses a country’s
procurement capability to determine if the country can manage its own procurements
when it receives Section 609(g) or Compact assistance funds.

While the MCC’s Fiscal Accountability Framework, implemented in May 2005, briefly
describes procurement and contracting practices, it does not provide adequate guidance
to personnel involved in conducting assessments of recipient countries’ procurement
capacity. The primary focus of the guidelines relates to fiscal accountability guidelines
not procurement guidelines. For example, the MCC’s procurement advisor stated that he
uses the Fiscal Accountability Framework as a guide when he conducts country
procurement capacity assessments. Another procurement specialist responsible for
country procurement capacity assessment indicated that she uses an unofficial checklist
that was self- created.

Selected international development organizations such as the World Bank and the
International Development Association, ensure standardization and consistency in
country procurement capacity assessments by establishing and documenting the
procurement assessment factors that serve as guidelines for personnel assessing a
recipient country’s procurement. Although the MCC is clearly not subject to following
these guidelines, it is instructive to note what types of factors or guidelines these older
agencies have put in place to ensure standardization and consistency in their
assessments of a country’s procurement capacity assessments. These guidelines or
factors include the following:

   •   Legal Framework
   •   Procurement System Organizational Framework
   •   Procurement Capacity building System/Institutions
   •   Procurement Procedures/Tools
   •   Decision making and Control Systems
   •   Anti corruption Initiatives and Programs
   •   Private Sector Participation in the System
   •   Contract Administration and Management
   •   System for Addressing Complaints

The lack of formally developed country procurement capacity assessment guidelines
occurred because the MCC is a new organization and was still working on developing
agency- specific policies and procedures.

Procurement is one of the highest risk areas of fiscal accountability; thus, the absence of
formalized policies and guidelines could potentially result in several inconsistencies and
nonstandardization in the process of assessing a country’s capacity for procurements,
thereby potentially increasing risks to the entire procurement process.

Therefore, in order to reduce inconsistencies and improve standardizing the
procurement process, we are making the following recommendation.




                                            12 

   Recommendation No. 3: We recommend that the Millennium Challenge
   Corporation’s Vice President, Department of Accountability, to ensure
   consistency and standardization in the Millennium Challenge Corporation’s due
   diligence process, formally develop and issue country procurement capacity
   assessment guidelines or procedures to use in determining a country’s capacity,
   or in conducting procurement assessments.



MCC Needs to Improve
Monitoring of Overseas
Procurement Practices

  Summary: The Millennium Challenge Corporation (MCC) did not provide adequate
  oversight of the Millennium Challenge Account-Lesotho (MCA-L) procurement
  practices resulting in delayed payments of over three-months to consultants. This
  condition occurred because the MCC did not have a policy to adequately address
  the issue of payments to independent consultants. The MCC modified World Bank
  guidelines that recommend adequate monitoring to ensure recipient country’s
  compliance with procurement guidelines. The absence of adequate controls over
  the procurement process resulted in late payments to service providers.

World Bank Guidelines: Selection and Employment of Consultants by World Bank
Borrowers May 2004, used by the MCC in developing their guidelines, was used to
conduct and administer the procurements of these consulting services.

The MCC’s guidelines require the MCC’s review, assistance and monitoring in the
procurement process. Paragraph 1.14 of the guidelines requires that, “the MCC review
the Government of Lesotho’s hiring of consultants to satisfy itself that the selection
process is carried out in accordance with the provisions of these guidelines.”
Furthermore, Appendix 1 on page 45 states, “the MCC shall review the selection
process for the hiring of the consultants proposed by Government of Lesotho...to ensure
compliance with these guidelines.”

The MCC did not provide adequate oversight of overseas procurement processes.
During our field work in Lesotho to review and assess the status of Section 609(g)
activities, several instances of inadequate controls over the procurement process were
noted. For example, several individuals who served as independent evaluators on
selection committees to select service providers for Section 609(g) contracts were
unpaid for over three-months after their services had been provided and prior to the
finalization of the contracts that established the payment rates.

These conditions occurred because the MCC did not have a policy to adequately
address the issue of payments to independent consultants. Furthermore, the MCC
management stated that the demand for payments for independent contractor services
was new to them and occurred after the procurement process was underway. However,
it is OIG's opinion that if the MCC had provided adequate oversight during the
procurement process, then this issue may have been prevented.




                                          13 

An absence of adequate controls over the procurement process resulted in late
payments to service providers and in contracts being finalized after services were
rendered. Therefore, to improve the MCC’s internal controls over service providers, we
are making the following recommendation.




   Recommendation No. 4: We recommend that the Vice President, Department of
   Accountability, strengthen controls over overseas procurements by developing
   and issuing clear and consistent procurement guidelines to recipient countries
   which would include a clear description of the Millennium Challenge
   Corporation’s responsibilities for monitoring and reviewing the recipient country’s
   procurements




                                           14 

EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. In its response the MCC agreed with the four recommendations in the
draft report.

For Recommendation No. 1, the MCC plans to provide the National Business Center
(NBC) with a list indicating all persons at Millennium Challenge Accounts who are
designated to authorize payments for invoices. In the event that a future 609(g) grant is
implemented with the recipient country being granted procurement authority and the
NBC serving as paying agent, the MCC will provide a list of those individuals in the
recipient country organization authorized to approve invoices to the appropriate NBC
personnel

For Recommendation No. 2, the MCC agreed that it should establish a more formalized
record of specific grants of waivers, and has already instituted a specific format to record
such waivers.

For Recommendation No. 3, the MCC stated that while conducting due diligence on the
procurement systems of its partner countries, the MCC conducts a risk assessment,
enabling it to hone in on the critical risk factors in the context of the environment that it
finds in each country, thus concluding whether an independent procurement agent is
needed. Further, the MCC stated that it has assembled a group of procurement
professionals, each with decades of experience in a multitude of public sector settings,
both domestic and international, to conduct assessments of procurement systems
proposed by an MCC eligible country.

For Recommendation No. 4, the MCC, although agreeing with the recommendation,
stated that the delay in payment resulted from the need to establish that the obligation
had been properly incurred and authorized (effective internal controls), versus a lack of
controls over procurement as noted in the finding. We agree with the MCC that
establishing that an obligation and been properly incurred and authorized is an effective
internal control process, however, the recommendation for monitoring and reviewing was
based on independent contractors providing a service prior to having a contract in place,
which described the scope of work and rate of pay. The MCC had a responsibility to
review the selection process for the hiring of the contractors (MCC guidelines, Appendix
1), which in this case was not done, thus our recommendation related to monitoring and
reviewing the recipient country’s procurements. The MCC has controls in place to avoid
this in the future, therefore we judge that MCC’s response adequately addresses our
concerns.




                                             15 

                                                                              APPENDIX 1





SCOPE AND METHODOLOGY

Scope
The Assistant Inspector General for the Millennium Challenge Corporation (AIG/MCC)
audited the MCC’s Section 609(g) Compact support activities in accordance with
generally accepted government auditing standards. The audit scope was limited to
reviewing the MCC’s compliance with its internal program policies on Section 609(g)
funding, relevant World Bank guidelines, and the Federal Acquisition Regulation. The
scope also included the MCC’s committed funding of $43,061,263 to 11 countries for the
period of March 2005 to July 2006.


Audit fieldwork was conducted at the MCC’s headquarters offices in Washington, DC,
between April 5, 2006, and July 14, 2006. Fieldwork also included site visits to Tiblisi,
Republic of Georgia, between May 15, 2006 and May 19, 2006, and to Maseru, Kingdom
of Lesotho, between May 23, 2006, and May 26, 2006


Methodology
To gain an understanding of the Section 609(g) Compact support activities, we
discussed the program with country directors who work with the countries that received
the funding and with officials in the Department of Accountability, the Department of
Operations and in the Department of Administration and Finance who were responsible
for procurement and funds management. In addition, we performed the following steps:

•	 Reviewed relevant laws, regulations, and guidance to gain an understanding of
   Compact support funding requirements.
•	 Obtained a listing of countries that received Compact support funding and used this
   as a basis for conducting our work.
•	 Identified and judgmentally selected two countries for testing that used the Compact
   support funding to directly procure goods and services.
•	 Reviewed documentation related to procuring service providers, monitoring and
   evaluating their work, and paying for the services rendered.




                                           16 

                                                                                    APPENDIX II





MANAGEMENT COMMENTS 




MEMORANDUM	                                                          September 7, 2006

TO:    	       John Phee
               Assistance Inspector General for the Millennium Challenge Corporation

FROM:          	Mike Casella
               Deputy Vice President for Administration and Finance

SUBJECT:       Management Response to IG Report on Management of Section 609(g)
Funds

The MCC appreciates the opportunity to respond to the text and recommendations of the
report.


Recommendation No. 1: We recommend that the Vice President for the
Department of Operations provide NBC with a list indicating all persons at
Millennium Challenge Accounts who are designated to authorize payments for
invoices, in order to ensure validity of the contractor’s work before making
payment into their accounts.


We concur with this recommendation that MCC provide NBC with a list indicating all
persons at Millennium Challenge Accounts who are designated to authorize payments for
invoices. In the event that a future 609(g) grant is implemented with the recipient
country being granted procurement authority and NBC serving as paying agent, MCC
will provide a list of those individuals in the recipient country organization authorized to
approve invoices to the appropriate NBC personnel.

As the report notes, this particular issue arose in only one of the 17 Section 609(g) grants
covered by the Report. In the case of the 609(g) grant to Georgia, approved on
November 29, 2005, Georgia was granted authority to conduct its own procurements
because it had secured an outside procurement agent but MCC did not grant Georgia
authority to receive funds and make payments because Georgia did not yet have a fiscal
agent in place. Accordingly, Millennium Challenge Account Georgia (MCG) used its




                                             17 

procurement agent to administer procurements, MCG staff signed contracts, and MCG
staff were authorized to certify receipt of goods and services and the validity of invoices.
However, MCC’s financial service provider, the National Business Center (NBC), served
as the paying agent for invoices once approved.

As the report further notes, it would have been inappropriate for any MCC employees to
certify invoices submitted to MCG as MCC had no contractual or contract administration
relationship to the vendors. It is accurate that the list of individuals authorized in MCG
to approve invoices was not communicated to NBC at the outset of the grant
implementation. However, there is no evidence that MCG approval of individual
invoices were made by unauthorized individuals.

Recommendation No. 2: We recommend that the Vice President of Accountability
establish a policy that describes the process of approving deviations to the
Procurement Agreement.

We concur with this recommendation that MCC should establish a more formalized
record of specific grants of waivers, and have already instituted a specific format to
record such waivers.

The report describes two procurement actions that took place in relation to a 609(g) grant
to the Government of Georgia that differed from the Procurement Guidelines that
governed the grant. Procurement Guidelines are a framework to a process that supports
the procurement goals of competition, transparency, fairness, and value. MCC believes
that these underlying goals for conducting procurements should not be undercut by
specific guidelines when the application of those guidelines would yield a result that
undermines the goals. Consequently, we believe that application of the guidelines should
also allow waiver of specific provisions when such a waiver is more consistent with the
goals.

The report acknowledges there was indeed a record of communication establishing the
reason for requesting a deviation, as well as the concurrence of our Senior Director for
Procurement, and that this communication was conducted via e-mail but formalized only
later in the context of approval of the Procurement Plan.

Recommendation No. 3: We recommend the Vice-President, Department of
Accountability formally develop and issue country procurement capacity assessment
guidelines or procedures for its personnel to use in determining a country’s capacity
for conducting procurement assessments to ensure consistency and standardization.


We concur with this recommendation that MCC should effectively communicate the
requirements of an acceptable procurement system that meets international standards.

The international donor community has struggled for decades to create a set of standards
to define an acceptable public procurement system and, as the report notes, some specific



                                            18 

donors have adopted factors of a good procurement system. However, effective and
efficient public procurement is the result not only of rules but the application of those
rules and, ultimately, whether the outcomes produced by a country’s procurement process
best serves the public interest. Because an acceptable public procurement process is of
such a qualitative nature, the international donor community has never been able to reach
consensus on either the specific factors of an acceptable system or the metrics that one
would use to measure whether those factors are yielding the ultimate necessary outcomes.

In conducting due diligence on the procurement systems of our partner countries, MCC
does not produce a detailed evaluation of the grantee’s procurement system, a process
which generally takes other donors at least two years to complete. Rather, we conduct a
risk assessment. Thus, we need to be able to hone in on the critical risk factors in the
context of the environment we find in each country. In some cases, our purpose can be
fully served once we identify a single fatal flaw, leading us to conclude that an
independent procurement agent is needed.

MCC has assembled a group of procurement professionals, each with decades of
experience in a multitude of public sector settings, both domestic and international, to
conduct assessments of procurement systems proposed by an MCC eligible country.
The experience and knowledge they bring with them in conducting these assessments is
invaluable in determining whether a proposed system, both in its framework and in its
application, meets the requirements of transparency, fairness, competition, value,
efficiency, and effectiveness.

Recommendation No. 4: We recommend that the Vice President, Department of
Accountability strengthen controls over overseas procurements by developing and
issuing clear and consistent guidelines to recipient countries which would include a
clear description of MCC’s responsibilities for monitoring and reviewing the
recipient country’s procurements.

We concur with this recommendation that MCC should provide clear guidance to
recipient countries on the procurement requirements that govern MCC grants and the
rights retained by MCC. Every Compact includes a specific agreement, labeled a
Procurement Agreement, with very specific guidelines that must be followed for any
procurement conducted to implement an MCC program. These guidelines include very
specific rights of MCC to issue “no objections” at any number of stages in the
procurement process for specific kinds of procurements, based either on the
procurement’s expected value or the nature of the contracting method being used. We
believe the Procurement Agreements provide clear and consistent guidance on
procurement requirements and on MCC’s rights to oversee the procurements.

We also note that the text of the report preceding this recommendation discusses the
delay in a payment to a service provider in Lesotho. In this case, the delay in payment
resulted from the need to establish that the obligation had been properly incurred and
authorized and the delay itself represents the impact of effective internal controls not, to
the contrary, evidence of lack of controls over procurement.



                                             19 

                     Flowchart of 609(g) Process

                                                    Review 

                                                    Compact

       Country
      Fiscal and
     Procurement                                Visit Country for
        Agent                                     Assessment
                      Yes




        Determine
        Fiscal and             Determine                 Pre-Due              Present

       Procurement             Country’s              Diligence/Due         Findings to

        Capability          Needs for Compact        Diligence Stage
                                                                           Government
20




                                                                                               No
                                Prepare                    Present
                              Request for                 Request to         IC Decision
         No                   Investment                     IC.
                             Committee. (IC)
                                                                                               Yes
                                                          Present to            Prepare
                                                          Country for        Implementation/
       MCC Fiscal
                                                          Signature         Grant Agreement
           and
                                                                                Or MOU
       Procurement
                                                                                               Congressional
          Agent
                                                            Begin                               Notification
                                                        Solicitation for      Select

                                                          Contracts         Contractor (s)





                                                                                                               APPENDIX III

                                                                            Begin 609(g)

                                                                             Activities

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig




                   21
